AfftNDtx
YAOPONE

IN THE
COURT OF APPEALS
*

OF MARYLAND
Petition pocket No. 458
September Term, 2020

v.
*

BOARD OF COUNTY COMMISSION ERS
FOR CALVERT COUNTY

*

(No. C-04-CV-20-000187, Circuit
Court for Calvert County)

ORDER
Upon consideration of the petition for a writ of certiorari to the Circuit Court
for Calvert County and the answer filed thereto, in die above-captioned case, it is this 26th dav
of March. 2021

ORDERED, by the Court of Appeals of Maryland, that the petition be, and it
is hereby. DISMISSED on the ground of lateness.

/s/ Mary Ellen Barhera
Chief Judge

Scanned by CamScanner

(
‘r

v\

AfTCWDI* A-1

'

YAOPONE

IN THE
*

COURT OF APPEALS
OF MARYLAND

v.
*

board of county commissioners
FOR CALVERT COUNTY

Petition Docket No. 458
September Term, 2020
(No. C-04-CV-20-000187, Circuit
Court for Calvert County)

ORDER
Upon consideration of the “Motion to Reconsider Denial of Petition for Writ of
Certiorari” filed in the above-captioned case, it is this 22^ day of June, 2021

ORDERED, by the Court of Appeals of Maryland, that the above pleading be.
and it is hereby, DENIED.

/s/ Marv Ellen Barbera
Chief Judge

Scanned by CamScanner

APf£/\/I> I* A-<J
«N THE CIRCUIT COURT FOR CALVERT COUNTY, MARYLAND

Board of County Commissioner for Calvert County, MD
Plaintiff
Case No. C-O4-CV-20-187

Yao Pone
Defendant
OR PER OF COURT

I

Upon consideration of Defendant's Request for Reconsideration of
Judgment dated October 27, 2020„ it is thereupon this/rtfe^

day
t

of h/*

2020, by the Circuit Court for Calvert County,
\

Maryland; hereby,

f

ORDERED, that the Defendant's Request for Reconsideration of
Judgment is hereby DENIED,

r

*

i
■

JP:

>

■

>
it

JUDGE

i
i
1
i
j

Received 11/24/2020
Copies sent to Pltfs counsel by e-serve and by mail to
deft, on 11/24/2020

%

MDS

True Copy Test

f

^P^rrjth) ■
j

Clerk of Circuit Court

• •,

j

i
i

Scanned by CamScanner

/

IN THE CIRCUIT COURT FOR CALVERT COUNTY, MARYLAND
>

BOARD OF COUNTY COMMISSIONERS
FOR CALVERT COUNTY, MARYLAND

)
)

Plaintiff (Appellee)

)
)
)

vs.

)

De Novo Appeal

Case No.: C-04-CV-19-000432

)
)
)
)
)

YAO PONE
Defendant (Appellant)

|

ORDER
This Matter appearing before this Court on the 6th day of March, 2020, and after the
presentation of testimony and other evidence:
1.

The Defendant Yao Pone owns the property at 143 Brooks Cove Drive, Lusby, Maryland
20657 (the “property” or “subject property”).

1.

The Defendant did perform new construction and grading on the subject property. The
subject property is zoned residential-limited development area and further is located in the
Critical Area.

t

3.

The Defendant was required to obtain a permit, permit exemption and/or zoning approval

S
i

prior to said construction and grading at the subject property.

l

r
!

I
t

4.

On March 25,2019, the Board of County Commissioners (hereinafter “County”) placed a
Stop Work Order on the subject property and, on March 28* issued a Notice of Violation
for the following violations of the Calvert County Zoning Ordinance (“CCZO”):
CCZO 1-7,01.0.4,5 - Stop Work
CCZO 4-1.01 - Permits and Zoning Approval
CCZO 8-1.04 - Limited Development Area
CCZO 8-2.08 - Fines Penalties and Mitigation

i

Scanned by CamScanner

APPEND/*
5.

Ignoring the aforesaid Stop Work Order, Defendant continued the unpermitted
construction upon the subject property and, accordingly, on April 11'\ 2019, the County
issued an immediate citation pursuant to CCZO 1-7.01-C.4,5 (Stop Work) and CCZO 1-

I
9

7.01 .C.6 (Violation of Stop Work Order).
6.

ft

Continuing to ignore the aforesaid Stop Work Order, the Defendant continued the
construction upon the subject property and, accordingly, on April 18th, the County issued

i
i

another immediate citation pursuant to CCZO 1-7.0I-C.4, 5 (Stop Work) and CCZO 17.01.C.6 (Violation of Stop Work Order). Further, the County issued a citation from the

i

March 28lh Notice of Violation
7.

During the inspection which led to the aforesaid citation for the violation of the Stop Work
Order, the Defendant was further cited for:
CCZO 1-7.01 .C.4,5 - Stop Work
CCZO 4-1.01 - Permits and Zoning Approval
CCZO 8-1.04 - Limited Development Area
CCZO 8-2.08 - Fines, Penalties and Mitigation

8.

Still continuing to ignore the aforesaid Stop Work Order, the Defendant continued the
construction upon the subject property and, accordingly, on May 3ri, the County issued
another immediate citation pursuant to CCZO 1-7.01-C.4, 5 (Stop Work) and CCZO l7.01 .C.6 (Violation of Stop Work Order).

9.

On April I ?'h, an inspection of the subject property revealed the delivery of a large,
unpermitted shed. On April 23rd, the County did issue a Notice of Violation for the
following Ordinance sections:
CCZO 1-7.01-04,5 - Stop Work
CCZO 3-1.1.11.1 - Accessory Building, Structure, and Use
CCZO 8-1.04 - Limited Development Area
CCZO 8-1.08 - Habitat Protection Areas

Scanned by CamScanner

t\n£Nm fii-£
rf

On May 22nd, the County issued a citation for the above-referenced violations.
]Q,

The Defendant has failed to correct the aforementioned zoning violations on the subject
property and remains in violation of the above-cited Ordinance sect ions.

11.

Accordingly, the Defendant’s actions constitutes violations of Calvert County Zoning
Ordinance and is thus liable for penalties and enforcement pursuant to the Calvert County
Zoning Ordinance § 1-7 (“Enforcement of Ordinance”).

THEREFORE, it is this 6th day of March, 2020, by the Circuit Court of Maryland for
Calvert County, HEREBY
ORDERED, that the Defendant Yao Pone, within thirty (30) days of this Order, shall
CORRECT the aforesaid zoning violations by (I) obtaining an after-the-fact grading permit
restoring the subject property to its original condition prior to the unpermitted construction and
grading, (2) obtaining a demolition permit for the removal of any unpermitted construction, and
(3) removing any unpermitted construction on the subject property; and it is further,

ORDERED, that the Defendant shall be fined $2,500 for said violations in accordance
with Section 1-7.01.D of the Calvert County Zoning Ordinance and shall remit payment of said
$2,500 fine to the Calvert County Attorney’s Office within 30 days of this Order; and it is further

ORDERED, that the aforesaid fine amount shall be reduced to judgment in favor of the
Plaintiff against the Defendant; and it is further

Scanned by CamScanner

I

AfPfNO/X A-6

f'

it*!

ORDERED, that if the Defendant falls to comply with any of the terms and conditions
contained in this Order, the Defendant’s failure(s) shall constitute contempt and thus liable for
penalties of S200 each day until the Defendant comes into compliance with this Order; and it is
further; and it is further,

ORDERED, that Plaintiff is permitted to inspect the subject property at any time upon
reasonable notice to the Defendant to ensure that Defendant is in compliance with the Zoning
Ordinance and this Order pertaining to the above-captioned matter; and it is further,

ORDERED, that the Court shall retain jurisdiction over this matter for the purpose of
enforcing thi s Order and granting such other and further relief as may be required.

o
Judge, Circuit

T&Wt£

rt for Calvert County

WQMtf

Copies: To All Parties.

lEiSais

is*

Scanned by CamScanner

